<html>
<title> - CHANGING AMERICAN DIPLOMACY FOR THE NEW CENTURY</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
            CHANGING AMERICAN DIPLOMACY FOR THE NEW CENTURY

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                      WEDNESDAY, FEBRUARY 2, 2000

                               __________

                           Serial No. 106-117

                               __________

    Printed for the use of the Committee on International--Relations



 Available via the World Wide Web: http://www.house.gov/international 
                               relations

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
65-232 CC                    WASHINGTON : 2000




                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE RADANOVICH, California        JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
               Kristen Gilley, Professional Staff Member
                      Jill Quinn, Staff Associate



                            C O N T E N T S

                              ----------                              

                               WITNESSES

                                                                   Page

Lewis Kaden, Chairman, Overseas Advisory Panel...................     4
Lynn E. Davis, Senior Fellow, Rand...............................     9
Ambassador Langhorne A. Motley, Member, Overseas Advisory Panel..    10

                                APPENDIX

The Honorable Benjamin A. Gilman, a Representative in Congress 
  from New York and Chairman, Committee on International 
  Relations......................................................    34
Admiral William J. Crowe.........................................    38
Mr. Lewis B. Kaden...............................................    43
Dr. Lynn E. Davis................................................    50




            CHANGING AMERICAN DIPLOMACY FOR THE NEW CENTURY

                              ----------                              


                      Wednesday, February 2, 2000

                  House of Representatives,
              Committee on International Relations,
                                             Washington, DC
    The Committee met, pursuant to notice, at 10 a.m. in room 
2118, Rayburn House Office Building, Hon. Benjamin A. Gilman 
(Chairman of the Committee) presiding.
    Chairman Gilman. The Committee will come to order. Members, 
please take their seats.
    We want to welcome all of you here today as we initiate our 
Calendar Year 2000 oversight hearings. We welcome our witnesses 
today.
    We are using the Armed Services Committee hearing room 
today because the International Relations Committee room is 
being renovated to modernize our facility with high-tech audio-
visual equipment. It will keep us out of that room for a few 
more weeks, but then we look forward to being able to have 
exchanges with parliamentarians around the world through the 
use of this equipment.
    Today's hearing, ``Changing American Diplomacy for the New 
Century,'' is an opportunity for our Committee to review and 
discuss the findings and recommendations of the November 1999 
report by the Overseas Presence Advisory Panel on ``America's 
Overseas Presence in the 21st Century.
    We decided to start the year with this hearing to emphasize 
the importance we place on the issues tackled in this report 
and to announce our support for implementing many of the 
recommendations. The care of a great institution requires us to 
be responsible not only for the day-to-day management, but also 
to look forward to the future to make certain that institution 
thrives.
    We have received many advisory reports in my time, and I 
want to compliment this panel for clearly laying out the issues 
that must be addressed to modernize the foreign policy 
structure. I wholeheartedly agree with the panel on the point 
that the key to success is setting up on interagency process to 
coordinate activities among the various government agencies 
involved in foreign affairs. The President must provide the 
leadership for a comprehensive approach to rationalize our 
diplomatic presence.
    I support an overseas presence for all reasons as stated by 
the panel, but as this report points out, it is how that 
presence is designed and whether the mission and goals are 
results-oriented that will determine a modern State Department 
operation.
    The Results Act sets up the means to link goals and results 
to resources. That must continue to be part of both the 
mission-planning process and Washington's allocation of 
resources. Let me note that it is regrettable that the 
Administration chose at the time of its release of the panel's 
report in November to bash the Congress over the nonissue of 
cuts in State Department funding. As a chart I have distributed 
to our Members makes clear, State Department funding has been 
increased, not decreased, over the years. In fact, the moneys 
available to the Department set records in real inflation-
adjusted figures last year.
    The State Department needs to spend its money more 
effectively, and we will certainly want to make some changes to 
increase flexibility along the lines indicated by the Overseas 
Presence Advisory Panel's report.
    I have a long-standing respect for the generallists in 
foreign service who undertake the challenges of living abroad. 
However, over the years I have become a believer that certain 
jobs should be confined to professionals in the field, 
including security, personnel, information management, and 
facility and construction management. In some instances that 
has occurred, and that is to the benefit of the State 
Department.
    In addition, if the State Department has staffing gaps in 
any particular area, they might well be addressed by lateral 
recruitment, the practice undertaken by organizations thought 
of as traditionalists, such as the British Foreign Service.
    Over the past few years, senior leaders at the Department 
have been more preoccupied with responding to day-to-day 
crises, and they have neglected the changing needs of their 
institution. I hope that the panel's recommendations will be 
acted on in the Year 2000, and that the report will provide an 
agenda for the incoming Administration.
    Having visited many posts in my time, I know we have 
talented people who can adapt to changes and probably would 
welcome a new approach to diplomacy.
    [The prepared statement of Chairman Gilman appears in the 
appendix.]
    I would be pleased to recognize the Mr. Delahunt for any 
opening comments he may have.
    Would you have any opening comments, Mr. Delahunt?
    Mr. Delahunt. I note the Chair of the Subcommittee----
    Mr. Smith. Thank you.
    Mr. Delahunt. I was just going to review a statement here.
    Chairman Gilman. Mr. Smith does have a hearing.
    Mr. Smith. I am chairing a hearing, as Chairman of the 
Helsinki Commission on the crisis in Chechnya. We have Chechen 
parliamentarians, and that is also taking off at 10 o'clock, so 
I am going to be shuttling back and forth.
    But I want to thank this extraordinary panel for the fine 
work that you have done. Our Subcommittee in the past has heard 
from a number of very, very interested people, including 
Admiral Crowe who presented riveting testimony about a year 
ago, in March, as well as David Carpenter, the Assistant 
Secretary for Diplomatic Security, who pointed out at the time, 
Mr. Chairman, as you know, that the number of threats against 
our embassies abroad had literally doubled from 1 year to the 
next, and that transnational terrorism had certainly raised the 
bar, significantly underscoring the need for a significant 
multiyear investment in embassy security.
    I am very pleased to note that H.R. 3427, which I 
introduced, and was cosponsored by our very distinguished 
Chairman, Mr. Gilman, and the Ranking Member of our Committee 
Mr. Gejdenson and Cynthia McKinney, not only passed but was 
signed by the President in that final push for legislation in 
the waning days of the last Congress. That bill was on life 
support more times than I can shake a stick at, but it 
significantly included $5.9 billion for embassy security and 
general moneys over 5 years for that, $900 million per year 
over and above the account for security and maintenance.
    So we have tried to at least authorize, put us on a glide 
slope to making sure that our people abroad are adequately 
protected, that there is a proactive security arrangement so 
that their lives and the lives of their loved ones are not put 
at risk more than is required, and shame on us if we don't do 
all that is humanly possible to protect our personnel overseas.
    Again, you have recommended a $1.3 billion annual over 10 
years which is pretty much in line with what we are trying to 
do, and now the big fight in the out years to make sure that 
the appropriators come up with the funds to meet the 
authorization level at least.
    So, again, I want to thank you for this excellent report. 
Regrettably, I do have to run over to this Chechen hearing, 
time being what it is, scheduling conflicts, but thank you.
    Chairman Gilman. Thank you, Mr. Smith. Mr. Delahunt.
    Mr. Delahunt. Yes. Thank you, Mr. Chairman. I am going to 
read a statement prepared by the Ranking Member, Mr. Gejdenson, 
who I want to assure you is under the weather, and he was here 
just a moment ago, and I turned to my right and I noticed his 
absence. So I am going to have to pinch hit for him, so to 
speak, but I want to, on behalf of Mr. Gejdenson, welcome you, 
Mr. Kaden, as Chairman of the panel and other Members of the 
panel that are here today, Ambassador, and Dr. Davis, as well 
as all the members who are not here but who put in a great deal 
of work over the past 1\1/2\ years.
    The panel did have broad representation, both from within 
the government as well as the private sector, NGO's and 
academic institutions. It is clear that much research, analysis 
and thought went into the recommendations of the panel. Thank 
you, Chairman Kaden, for leading this effort to re-examine the 
systems and processes through which our diplomatic mission is 
conducted.
    As you pointed out in your report, the nature of diplomacy 
has changed dramatically in the post Cold War era. Our 
embassies are having to engage with a broad array of actors 
through multiple mediums, and on an increasing number of 
issues. The proliferation of international terrorism has added 
a new level of risk to our overseas missions, and yet in the 
face of these new and increasing demands on the talented and 
dedicated men and women that carry our foreign policy, Congress 
has not stepped up to its responsibility.
    While we agree with many of your findings, I am frustrated 
with the lack of support within Congress to adequately fund the 
150 account and provide our President and Secretary of State 
with the resources they need to upgrade and modernize our 
foreign policy apparatus. I hope this report will serve as a 
wake-up call to my colleagues that our diplomatic mission is in 
crisis, and we look forward to hearing your testimony.
    Thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Mr. Delahunt. Any other Members 
seeking recognition? If not, we will proceed with our 
panelists.
    Today, we have three distinguished Members of the Overseas 
Presence Advisory Panel who have agreed to discuss their 
findings and recommendations of their panel. First, we have 
Lewis Kaden who chaired the panel. Mr. Kaden holds degrees from 
Harvard and currently is a partner in the law firm of Davis, 
Polk and Wardwell in New York City. Mr. Kaden has an extensive 
background in the public and private sectors and brings a great 
deal of experience to the task of modernizing our State 
Department.
    Also joining us is Ambassador Tony Motley, who was our 
Ambassador to Brazil, and the Assistant Secretary of State for 
Inter-American Affairs. He has also been in private and public 
sector positions in the State of Alaska. Ambassador Motley 
currently heads an international trade consulting firm and 
finds time to Co-chair the State Department's Ambassadorial 
seminars.
    In addition, we have Dr. Lynn Davis, currently a Senior 
Fellow at Rand where she has served on the review boards that 
investigated the embassy bombings in East Africa as well as 
this panel. She is also on a study group of the Commission on 
National Security in the 21st Century. Dr. Davis previously was 
the Undersecretary of State for Arms Control in International 
Security Affairs. She holds a Ph.D. in political science from 
Columbia University.
    I welcome all of our panelists and ask that you proceed 
with your statements. Without objection, your statements will 
be entered into the record. Also, without objection, I am 
submitting for the record the statement of Admiral Crowe, who 
is not able to be with us today but commented on the panel's 
findings. Please proceed, Mr. Kaden.
    [The prepared statement of Admiral Crowe appears in the 
appendix.]

  STATEMENTS OF LEWIS KADEN, CHAIRMAN, OVERSEAS ADVISORY PANEL

    Mr. Kaden. Thank you, Mr. Chairman. Let me make just a few 
points about the panel's report and the recommendations that 
are more fully summarized in the statement which you have 
included in the record. Let me say at the outset, on behalf of 
all the panel members how much we appreciated the cooperation 
and the opportunity to consult with you, Mr. Chairman, and with 
Members of this Committee in the course of our work. I spoke on 
several occasions with you and with others, including 
Congressman Smith and Congressman Gejdenson, Congressman 
Bereuter and other Members of your Committee, and those 
consultations were enormously helpful to us in our work.
    Let me summarize our conclusions this way, and then I will 
be happy to elaborate in the course of our colloquy.
    First, we concluded, as you know, that in today's 
environment, the activities engaged in by U.S. Representatives 
overseas are, if anything, more important than they were in the 
past. That is not a self-evident proposition. There are those 
who say that in the era of CNN and rapid communications and 
travel around the world, why do we need to have on-the-ground 
presence in so many places? Why do we need to subject thousands 
of men and women who serve the United States to the dangers and 
risks of activity overseas. We conclude that given the array of 
challenges and opportunities for the U.S., the complex tasks we 
ask our representatives to perform, and the importance of those 
tasks to our national security and our national interest, that 
it is even more important that we have the right people, with 
the right skills and the right support and the right protection 
on the ground around the world.
    So that is our first conclusion. I can elaborate on that. 
You are all familiar with that agenda. Some years ago, several 
decades ago, diplomacy consisted essentially of interacting 
with other governments and reporting on those interactions back 
to Washington. Today, it is entirely different. As markets open 
up, as political systems change, we ask our representatives to 
interact on a daily basis, not only with the governments in the 
countries in which they serve, but with the civil society, with 
business groups and labor groups, with political interests and 
other groups, public interest groups of all kinds, and that 
requires a degree of skill and training and background that is 
really quite different than it was some time ago.
    We ask those representatives to be expert and to engage not 
just in the kind of political and economic issues and strategic 
issues that occupied the agenda in past decades, but to also be 
involved in global environmental issues, in combating crime and 
terrorism, in dealing with weapons proliferation, in dealing 
with the spread of disease and the development of vaccines 
against new diseases and a host of other issues. So we see 
these functions and the activities we ask our representatives 
to perform as more important than ever, more challenging than 
ever.
    Second, we concluded that the state of our activities 
overseas, the way they are organized, the way they are staffed, 
the way they are housed and equipped, is in a sorry state of 
disrepair. The report says that it is perilously close to 
system failure, and those were words we chose carefully. For 
the greatest country in the world, with the greatest potential 
influence of any nation in the world, to send our men and women 
overseas and put them in the conditions that they serve in, in 
so many places, not just in terms of dilapidated physical 
facilities or inadequate security, although those are extremely 
important, but also in circumstances lacking basic technology, 
basic training and skill development, basic match up of their 
experience with the challenges and tasks they are asked to 
perform.
    This is an area in enormous need for improvement, and the 
promising thing is that this is not an area that provokes 
partisan differences like so many other issues that we debate 
in this town. Everyone, from whatever political persuasion, has 
an interest in seeing to it that the United States engages in 
these activities effectively. As you said, Mr. Chairman, in 
your statement, the government has to perform these functions 
efficiently in order to set the foundation for asking for the 
resources necessary to perform them, and it is an obvious 
tradeoff. Until the government manages these activities 
effectively they are on weak ground in asking you for the 
additional resources that are necessary.
    So the answer to us is, and the report says this, that this 
requires a partnership between the Administration and the 
Congress to see to it that the activities are properly 
organized, efficiently managed, effectively performed and 
properly funded. It all goes together.
    Our recommendations, let me just highlight four or five of 
them very briefly. The first is security. As Admiral Crowe 
concluded in his review of the circumstances in the bombings in 
East Africa, our first obligation is to offer adequate and 
secure protection to those men and women we ask to serve 
overseas, and in this regard, not only the facilities and the 
capital improvements have to enhance security, and that does 
take resources, but also the simple things, the procedures, the 
training, the windows, the things that we can do in the short 
term on limited budgets are areas of improvement that we have 
to do, and we have to do urgently so we can say to our 
representatives the government has done what it takes to 
control and limit the risks under which you serve.
    Those risks will always exist. There are dangers in the 
world. There are dangers we are all familiar with. But it is 
simply inexcusable not to make the investment and training and 
procedures and leadership, not to have clear lines of 
accountability and responsibility for security within the 
government, and those are the issues that our report addresses.
    Second, right sizing. We think it is important that all the 
agencies of government with an involvement overseas cooperate 
through an Interagency process under the President's leadership 
and chaired by the Secretary of State to develop staffing 
patterns post by post around the world that do two things: that 
match up skills with mission priorities, and there are some 
enormous challenges in that regard; and that size the staff of 
embassies in a way that we can say is as efficient and 
effective as possible. So there are two objectives, at least 
two objectives here. One is a better match up of mission tasks 
and the skills of the staff we assign to do them, and the other 
is to be able to say that we have a lean and agile and well-
equipped force to do the job as efficiently as possible.
    Our panel concluded on the basis of our visits that there 
are places in the world where there is a great deal of room for 
improvement in this area, both on the match up of skills and 
tasks, and on the number of people. Let me just give you one 
example. Ambassador Rohatyn, who serves in Paris, was an active 
member of our panel and a very distinguished businessman and 
public servant from New York with whom I have worked for many 
years. He arrived in Paris and observed--the numbers varied 
depending on how you count and which day you ask the question--
but there are somewhere between 1,200 and 1,500 people serving 
in the embassy and consulates in France. Many of our allies who 
are doing considerable business in France have their staffs 
around the country at a third, a quarter, some cases 40 
percent, of those numbers. Britain and Germany, for example, 
who do a tremendous amount of business in France of all kinds, 
have great interest in France, have roughly a third the number 
of people we have.
    Ambassador Rohatyn also observed that the people weren't in 
the right place. In France, the centers of commercial and 
business activity are not in Paris. They are not around the 
national government. They are in Lyon and Tours and other 
cities, and he came up with the idea, why don't we take a 
single officer and some support staff and put them in those 
places, they can do a great deal of good with a cell phone and 
a computer and a car, advocating U.S. commercial interests, 
pursuing other U.S. national interests, and he has managed to 
implement, with congressional help, three or four of those 
small presence posts as they are called.
    I think when he is asked by this Interagency right sizing 
Committee to come up with a pattern of staffing for France, you 
will see significant reductions in the number of people and 
significant enhancements in the skill level and tasks which 
they are capable of performing, and there will be savings in 
that, but equally importantly, there will be an enhancement of 
the effectiveness with which they represent U.S. interests. I 
think the same is true in many other places in the world.
    So we suggest that the President convene that Interagency 
Committee, designate the Secretary of State as the Chairman and 
get it moving on some selected posts. You can't do them all at 
once. You have to pick out some targets. I think the Secretary 
of State has taken some steps in that direction, and hopefully 
the President will put his influence behind it so that all 
agencies of the government cooperate in the effort.
    Second, technology. It is a disgrace that our 
representatives don't have the simple capacity to communicate 
between agencies or back to Washington. The kind of 
communication that in my small law firm with 500 lawyers 
scattered around the world, we take for granted and the 
business organizations represented on our panel like Goldman 
Sachs and General Electric have taken for granted for years. 
The representatives we ask to serve there can't communicate by 
e-mail with the people that are serving back in Washington or 
with their colleagues across the street in the capital in which 
they serve, and this is not a technological problem.
    The technology exists. We had consultants look at it. It is 
not even a budgetary problem because it would be remarkably 
cheap, and we suggest that the first step ought to be to 
provide that kind of common technology platform for 
unclassified communication which represents 80 or 90 percent of 
all communications in embassies and consulates around the 
world. You could do that this year at modest cost, and then you 
could initiate a study with all appropriate agencies 
participating about how to provide a common technology platform 
for more sensitive classified information. We estimate that 
that would take 2 years.
    Third, human resources. The government is far behind the 
times of the best practices in the private sector and other 
governments and State governments in many respects on personnel 
practices, how you recruit, train, evaluate, promote the most 
talented young people in the service. This is something that 
shouldn't be controversial. Undersecretary Cohen has begun some 
efforts in the State Department in this direction. We think 
that process ought to be accelerated, supported, and again will 
yield significant benefits and efficiency and effectiveness.
    Finally, the buildings' management and construction process 
itself. We say in the report that constructing and managing 
buildings is not a core competence of the State Department. It 
seems like a simple statement. It has aroused enormous 
controversy, but our observation was that the State Department 
is quite good at many things, but designing, building, 
maintaining the 12,000 facilities under their jurisdiction 
around the world is not one of the things they are good at. It 
is now performed, as you know, in the FBO. We suggest that--and 
this is an area in which our country has the greatest expertise 
of any place in the world. Designing, constructing, maintaining 
physical facilities, there is an enormous wealth of experience 
and learning in this country. We need to put it to work for the 
nation's interest.
    So we suggest then that Congress ought to take action to 
create a new entity, a government-chartered corporation. We 
call it the Overseas Facility Authority. It ought to have more 
flexible tools for financing. It ought to have the ability to 
create a lean and sophisticated staff in this area. It ought to 
be able to enter partnerships with private sector organizations 
to get the job done. It ought not replace the statutory 
responsibility for policy and priorities that now are vested in 
the combination of the Secretary of State, the President of the 
United States and this Congress. In other words, the decisions 
on where to build, the shape of the buildings, the priorities 
of activities there ought to remain as they are now with the 
Secretary of State and the Congress and the President, but the 
more mundane task of implementation, of designing, constructing 
and maintaining buildings ought to be vested in this 
government-chartered corporation. All the agencies who use the 
platform should be represented on it, and we think the benefits 
can be a faster pace of development and construction, better 
facilities, lower costs, a fairer way of allocating the costs 
among those who use it and a better staff to perform the 
function.
    It is an idea that Ambassador Rohatyn and some of the 
business members of the panel, Steve Friedman, the former 
Chairman of Goldman Sachs, Jack Welch from GE, and Paul O'Neill 
from ALCOA took a special interest in. We would be happy to 
work with you and other Committees of the Congress on the 
details. We have urged the President to put his staff to work 
on the design of this legislation, and whether it comes from 
the White House or it comes from the Congress, I think it is an 
idea that we would like to see receive serious debate.
    Those are the highlights of the report, and I look forward 
to responding to your questions.
    Chairman Gilman. Thank you, Mr. Kaden, for your extensive 
review, and we welcome your suggestions.
    [The prepared statement of Mr. Kaden appears in the 
appendix.]
    Chairman Gilman. We will withhold questions until all of 
our panelists have an opportunity to be heard.
    Before I turn to the next panelist, I would like to welcome 
Ambassador Peter Burleigh, our former Deputy U.S. 
Representative to the U.N. I understand Ambassador Burleigh 
will be heading up the right sizing effort for the Secretary, 
and we look forward to working with Ambassador Burleigh on this 
effort as we realign our overseas resources. Welcome.
    Now, we will turn to Dr. Lynn Davis, our expert on a number 
of areas, and former Assistant Secretary.

        STATEMENT OF LYNN E. DAVIS, SENIOR FELLOW, RAND

    Dr. Davis. Thank you, Mr. Chairman. It is a pleasure to be 
back and to appear before your Committee. I have been 
privileged since I left the Department of State to serve on the 
Accountability Review Board that investigated the tragic 
bombing in Tanzania and then on the Overseas Presence Advisory 
Panel, which was charged with looking at the character of our 
overseas presence, and at the same time ensuring that we 
provide security for those overseas personnel in the face of 
budgetary restraints and the new foreign policy priorities.
    Let me begin, Mr. Chairman, by subscribing to the view of 
the Overseas Presence Advisory Panel: the dramatic changes in 
the world make our overseas presence in virtually every country 
more valuable than before. So I begin with that objective, and 
it is, as our chairman said, not one that we all came to 
immediately, but over the course of the work of this panel, I 
do believe strongly that we need to be overseas, but at the 
same time thousands of Americans representing our nation abroad 
still face an unacceptable level of risk from terrorist attacks 
and other threats.
    So as part of the work of this Committee and the 
implementation of the recommendations of the Overseas Presence 
Advisory Panel, it is very important to keep in mind that we 
have to address those security risks by a number of different 
steps, and we have to ensure as we right size or find the right 
overseas presence that we keep security in mind in making those 
decisions, that security is an integral part of the process by 
which we make those decisions.
    Mr. Chairman, you have heard from Admiral Crowe, who more 
eloquently than I, can describe the various steps and goals 
that were outlined by the Accountability Review Boards. I would 
like to just highlight a couple of those as we move forward in 
this next year.
    The first is that we need to think about security in terms 
of a comprehensive strategy. No single one step will be enough. 
We must appreciate that no one is safe. Every single embassy 
and every American overseas is at risk, and we have to 
undertake a strategy that focuses everywhere, and no place is 
seen to be safe. We also have to understand that everyone must 
share responsibility for security, those of us here in 
Washington and those of us overseas. It is not that security is 
done by someone else, but everyone has to take seriously 
ensuring our security.
    The Secretary of State must give her personal priority and 
attention to security. She needs to ensure that accountability 
and clear lines of responsibility are in place for assuring the 
security of Americans overseas. This was not the case at the 
time of the embassy bombings, and I would strongly urge the 
Secretary of State to implement the recommendation of the 
Overseas Presence Advisory Panel to designate the Deputy 
Secretary of State as the individual responsible for carrying 
out her legislatively mandated responsibility to provide 
security for all American officials abroad. A single person 
needs to be designated and be accountable and responsible for 
the security of Americans overseas.
    We have a number of near-term steps that need to be 
undertaken. Many are underway, and now they need to be 
sustained, and most important, though, Mr. Chairman, as you 
suggested in your opening remarks, is the need to ensure that 
there is the proper amount of funding to take care of and 
address the vulnerabilities of our embassies. It is expensive 
but it is not too much to ask for those who carry out our goals 
abroad.
    You know the numbers. You will be getting the new budget. I 
have been disappointed quite frankly that the President has not 
done more to find the funds necessary, and I would encourage 
you all to give your continued attention as authorizers to this 
task and work closely with the appropriators to find these 
funds.
    Fifteen years ago, Admiral Inman's advisory panel produced 
a comprehensive report on the issue of embassy security. The 
Accountability Review Boards were struck by how similar the 
lessons were for the East African bombings as those drawn by 
the Inman panel. What had happened was that the U.S. Government 
had failed over the years to take the steps necessary to 
sustain the priority and funding for security. Once the 
bombings were over, people forgot about the dangers, and the 
lesson we need to learn from the East African bombings is that 
we can't afford to lose focus and not give priority to security 
in the future.
    In the words of the Chairman of the Accountability Review 
Boards, Admiral Crowe, we must face these facts and do more to 
provide security or we will continue to see our people killed, 
our embassies blown away and the reputation of the United 
States overseas eroded.
    I thank you, Mr. Chairman, and I look forward to your 
questions.
    Chairman Gilman. Thank you, Dr. Davis.
    [The prepared statement of Ms. Davis appears in the 
appendix.]
    Chairman Gilman. Ambassador Motley.

 STATEMENT OF AMBASSADOR LANGHORNE A. MOTLEY, MEMBER, OVERSEAS 
                         ADVISORY PANEL

    Ambassador Motley. Thank you, Mr. Chairman. I thank you and 
the Ranking Member, and Lew certainly laid out very well what 
we were all about. It is a small part within a very large 
portfolio that you have, and I think that I will just tick off 
five things that this report is not about, which brings it back 
into the focus of which we have talked about.
    This report is not about policy. It is about the climate in 
which you make policy work. That by itself makes it a dull 
subject because policy is a thing that everybody likes and 
spends the time on and that is where all the action is, and yet 
you can't get policy implemented if you haven't got the back 
room straight. So we are not about policy in that sense.
    We are not just about the State Department either. We are 
about all the other agencies, some 30 or 40 that serve 
overseas, bring in their different cultures and how is it that 
they adapt their administrative procedures, and as Lew talked 
about, just simple things like information technology. It is 
not just about money or more bodies. It is about how we train 
and equip the force that will implement the stuff.
    It is not a critique of any one term or one Administration, 
and thus we have to keep making the case, because sensitivities 
are that if we say something, people take it as if it is in the 
present day. It is not that. I think those of us that have 
looked at it know that as we have looked at this, it is decades 
long of either neglect or lack of oversight, or whatever you 
want to call it, that has created this.
    Finally, let me say to you that it was not prepared in a 
vacuum. This is not 25 people in a room gathered together since 
February through September hammering it out. We were fortunate 
to have enough backup with consultants. We reviewed 108 
documents, earlier studies done by the State Department, done 
by outside groups, done by the GAO. We reviewed testimony and 
proposals in Congress. The reason we did that was we did not 
want to operate in a vacuum, and we reached out beyond that. 
Working overseas are multinational companies. DHL is in many 
more countries than the U.S. Government is. General Electric 
has seven times as many people overseas as the State Department 
does. How do they handle it, how do they handle their pay, how 
do they handle bringing them back in, how do they handle their 
security, how do they build buildings, how do they do things.
    So we sought out some of the best practice of all of these 
and put them in a matrix form. The net result I think is, one, 
we didn't reinvent the wheel. There have been a lot of good 
ideas in there. We have incorporated them. We gave credit, 
Stimpson Report, CSIS. What we have tried to do here is put it 
all in one place, in just this area, non-policy, and hope to 
give it the push because our goal is not to be a study that is 
looked at by the next group that gets together in a few years 
to look at this aspect.
    Thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Ambassador Motley. We will now 
proceed to our questions. I note there are about 40-some 
recommendations in the report. Can you prioritize some of the, 
say, top 10 out of all of that?
    Mr. Kaden. I think as I indicated in my preliminary 
statement, we would say there are a top four or five: right 
sizing, technology, the buildings and maintenance authority 
corporation that we suggest, the human resources and personnel 
practices improvements that we suggest, and the investment in 
security. Those are our top five.
    Chairman Gilman. I appreciate that. I understand that your 
panel worked with various government agencies in the White 
House on this report. Are the State Department and the White 
House following the time line for recommendations included in 
your report, and has someone been appointed to implement this 
at the State Department? are you working with someone at the 
White House?
    Mr. Kaden. I think there have been a number of discussions, 
but the jury is still out on the implementation process, and I 
hope you, Mr. Chairman, and your colleagues follow up with the 
Administration. Within the State Department, there are a number 
of efforts underway as I understand it, and Ambassador 
Burleigh's assignment to lead the right sizing effort is an 
important part of that. I think Undersecretary Cohen has also 
initiated a considerable amount of work on the personnel 
practice and human resource issues as well.
    I think, with respect to the White House, we will have to 
see. I would hope that there will be some news from the White 
House about the designation of and implementation coordinator 
in some of these areas, and I hope that the budget, when it is 
submitted next week, will include some initial provisions 
toward implementing these recommendations. But I think those 
two are subjects that I would encourage you to follow up on 
with representatives of the Administration.
    Chairman Gilman. Did you ask the White House to appoint an 
implementer?
    Mr. Kaden. We certainly have. We recommended it in the 
report, and I have followed that up with several conversations 
with senior staff in the White House.
    Chairman Gilman. Thank you.
    Dr. Davis, in addition to this Commission, you also served 
on the Commission on National Security in the 21st Century. 
When that Commission issued the first of three reports in 
September 1999, former-Speaker Gingrich said the following: ``I 
would emphasize that the way that this was drafted in the 
original legislation in which General Boyd and I had, and the 
President had jointly worked on was to allow us to look at all 
aspects of national power, and I would argue that means not 
only the Defense Department, but the State Department national 
security apparatus, the Treasury, et cetera.'' It seems 
Gingrich is suggesting that a serious look at revamping our 
national security apparatus will have to review all the 
departments and agencies that affect our ability to protect 
national power. Do you agree with that premise?
    Dr. Davis. I can describe to you the charter that set up 
this Commission, and it is a three-phase study which began by 
looking at the world in the 21st century. The second phase, 
which is currently underway, is to describe a strategy to 
respond to the threats and opportunities of that world. The 
third phase is to look at the governmental structures and 
processes to carry out that strategy.
    The national security strategy is broadly defined, and so 
the Commission is charged at least to look at the whole 
national security apparatus and to make recommendations by the 
end of this year.
    Chairman Gilman. How do the two commissions you have served 
on complement and inform each other?
    Dr. Davis. The accountability review boards were set up to 
investigate the tragic bombings in East Africa. One of the 
recommendations of that board was to ask the Secretary of State 
to investigate the overseas presence, the size and the tasks of 
America's overseas presence in light of the security dangers 
and threats that now face us. Our Chairman's panel is a follow-
on to that recommendation, that is, because security needs to 
be set in the broader context. It was precisely our hope that 
through such a panel, we could integrate thinking about 
security with why it is that we are overseas, our goals, and 
how it is that we can afford within the budget situation to 
have security, but also have as effective an overseas presence 
as we possibly could.
    Chairman Gilman. Should we focus just on the State 
Department or should we be looking to some of the other 
agencies such as Defense?
    Ms. Davis. In terms of providing security for Americans 
overseas, this is a task that involves all Americans, official 
Americans, not the military because that is a separate set of 
tasks, but when we think about preserving security of Americans 
overseas, our embassies, these are all Americans. It is not 
just those that serve the State Department. One of the 
challenges of the Overseas Presence Advisory Panel was to put 
together a set of recommendations that would cut across the 
agencies and try to rationalize and make more effective the 
ways in which we go about sizing the American overseas presence 
across all the agencies and not just the State Department.
    Chairman Gilman. I am going to ask all the panelists, 
another member of the 21st Century Commission is our former 
Chairman, Lee Hamilton, and at a press conference he said we 
know that in Washington there are commissions and there are 
commissions. Some commissions file reports and they go up on a 
shelf and gather dust, nobody ever looks at them. Other 
commissions really do have an impact. What will your panel do 
to make certain it has an impact?
    Mr. Kaden. Let me say from the outset--I think I speak for 
all the members of the panel--we were determined to do our best 
to make sure that this would not be a report on the shelf. We 
didn't want it to be a large book. It is a relatively short, 
accessible, readable report. But more important, we wanted both 
to prepare it and to promote it in close consultation with 
leaders in the Administration, the Congress and outside groups. 
So as you know, Mr. Chairman, in the course of our effort, I 
met repeatedly with you and Members of your Committee, with 
Members of the Appropriations Committee, with your colleagues 
on the Senate side.
    We did the same thing throughout the Administration, not 
just in the State Department as Dr. Davis and your comment 
indicated. The State Department accounts for about a third of 
the personnel serving the United States interests overseas 
outside of command activities in the military. There are 30 
other agencies involved in those activities. We worked closely 
with virtually every one of them, and we also consulted widely 
and talked extensively with leaders in the business community, 
the labor community, the nongovernmental organizations and 
environmental and other areas.
    Now the question is whether all of those efforts toward 
making this a report that has some life to it will bear fruit, 
and I think that depends on the follow-through from the White 
House, the State Department, the rest of the Administration 
and, most particularly, the Congress. We have been encouraged 
so far by the reaction of you and your colleagues. As I say, I 
am eager to see both in the budget next week and in the 
comments from the White House about the follow-through from 
that direction, and I am encouraged with the early efforts in 
the State Department to tackle some of these problems, but it 
will require continuing partnership and continuing oversight on 
your part.
    Chairman Gilman. Thank you, Mr. Kaden. We hope that when 
the budget starts floating around these halls that you will let 
us know if you see some failure to implement some of your 
proposals. Ambassador Motley.
    Mr. Motley. Yes. Chairman Hamilton usually puts his finger 
right on it. This is just a report unless it gets legs, as they 
say in the trade, and I have to hand it to Lew Kaden who bent 
over backward all the way through this thing to go to every 
think tank that has an interest in this thing, and all of them, 
at one time or another, have done a report, and so you have to 
get over the parochial approach. I think as a result of that 
you will find that there is pretty much unanimity behind this 
report. It is coming from business. I think it will come from 
labor. It comes from the think tanks in this town.
    Many of us put 9 months in this thing, and I am speaking 
for myself, I am not prepared to sit back and just say we did a 
report. I went to New York at Lew's instigation in the middle 
of that snowstorm and talked to 15 people that had nothing else 
to do that night, and so we are actually trying to get out and 
build the kind of consensus we know it takes in order to 
compete with all the other items that are on your agenda.
    Chairman Gilman. Dr. Davis, my time has run out so if you 
would be brief.
    Dr. Davis. Just briefly to say, as part of the panel 
reports, you will see that we tried to give you rough estimates 
of the costs, that this was a report that tried to set itself 
in the realism of today's world of the budget realities, and so 
what we were trying to do is have some recommendations that 
would not only focus on the new world but be realistic as to 
what it is going to cost, and maybe that will help you all as 
you take the task forward of helping us implement the report.
    Chairman Gilman. Thank you. I want to thank our panelists 
for their response. Mr. Gejdenson.
    Mr. Gejdenson. As I read your efforts here, it is a pretty 
comprehensive work. I think there is only one place you missed, 
and maybe I can understand that since you are reporting to us 
today, but while you were very accurate, I think, in pointing 
out that this is not an attack on any one Administration, the 
one place where there has been a consistent failure to respond 
has been the Congress, and we have sometimes been in collusion 
with Administrations to inadequately fund these areas. But 
oftentimes the Congress has led the effort to underfund our 
needs overseas.
    It seems to me that if you had a report like yours talking 
about the military, that we were sending people into battle 
without adequate security and preparation, it would have banner 
headlines, and Members of Congress would be running to the 
Floor to take action to defend themselves from the inaction 
that has occurred here for all too long, and I think that we 
have to take the same attitude about all people when we send 
them overseas, whether they are in the military or the State 
Department or DEA or CIA. We ought to give them the absolute 
best that is possible, or else we are not doing our job here. 
While I understand not wanting to point the finger, up at this 
panel today, while you are here, I think that an honest 
assessment of Congress' role would be a healthy addition to the 
debate. Again, I wouldn't suggest you do it today. We probably 
wouldn't like it.
    Mr. Motley. We thought it about it, and then it made us 
feel good and we rejected it.
    Mr. Gejdenson. The questions I have run to a couple of 
issues here. One is, we had this problem with the former head 
of the CIA, Mr. Deutch and the problem with Ben Ho Lee at Los 
Alamo, where essentially the problem is that both of these 
individuals got in trouble because they took information they 
had a right to have, but they had it on the wrong computer. My 
sense is that that is part of the panic in the State 
Department, that everybody is afraid, if you let them start 
using e-mail, it will be more than a nasty review of the boss's 
performance that will go out over the Internet. You think that 
is not a big challenge to make sure they can keep intelligence 
information, stuff that has some sensitivity, from being 
inadvertently sent out; and then, of course, the response. 
Members of Congress will come beat that person up, wanting them 
incarcerated. So the papers will demand more investigations. 
They are now asking George Tenet why he didn't do more about 
the former head of the CIA taking stuff home on the wrong 
computer.
    Mr. Kaden. You see, Congressman, as the report indicates, 
there are different degrees of protection required for 
different kinds of communication, and obviously sensitive, 
classified information has to be subject to different 
procedures, but a great deal of the day-to-day business that 
goes on around the world among our representatives is not 
classified, doesn't need to be classified. It may be sensitive, 
it may be confidential in the same way other organizations have 
confidential material, but that communication can be adequately 
protected.
    I think the real problem is cultural rather than 
confidentiality. As we all know from all the literature about 
the computer age, technology breaks down barriers. It breaks 
down hierarchies. It facilitates communication on a horizontal 
basis among people working together so that you would have a 
much more rapid sharing of information and consultation on 
issues across agency lines without always going through many 
levels of hierarchy, and it is the reluctance to open those 
doors that I think causes some agencies in the government to be 
wary about giving their people the communications technology 
links that they need to have to engage in their activities.
    Mr. Motley. I think what you have laid out is a continuing 
problem, and e-mail is just another pipe or avenue where this 
can happen. I mean it is the same as do you use the STU-3 phone 
which is classified, or do you use the other phone, when you 
write something out do you put confidential. I think we have to 
keep in mind about the continual training of classified 
material and how you do it. I think e-mail just presents 
another challenge.
    Mr. Gejdenson. Yes. Let me just ask one last question then. 
You create a new agency to deal with the structures, and I can 
understand that the State Department may not be the place to, 
worry about building buildings and security and all those other 
things. Why wouldn't we just use an existing government agency? 
I don't know, GSA, don't they usually build our buildings?
    Mr. Kaden. They do domestically. Part of the driving force 
for this new entity that we propose is that we are attacking 
several different problems. Multiple agencies use these 
platforms. They say all the agencies that send personnel 
overseas, they are the tenants in effect. The logical thing is 
to have a fair allocation of the cost. So that, for example, 
when the FBI decides how many people it wants to send to 
Bangkok, it makes that decision reflecting the reality of how 
much it costs to get them an office space and housing and so 
forth. The current system doesn't do that and it makes for poor 
decisions.
    But just as we want to charge them a fair share of the 
cost, they are asking for a proper degree of input into the 
planning process. So part of our motivation for this new agency 
was to have it governed by a structure, a board of directors in 
effect.
    Mr. Gejdenson. It is not just the efficiency of the 
operation. You want to get them a nice piece of change so they 
can operate more like the private sector in the sense of 
managing assets for a company with multiple divisions?
    Mr. Kaden. Exactly, and then we want to charge them fairly 
for the facilities they use so that the costs are rationally 
allocated.
    Mr. Gejdenson. Did you take a look at the impact of 
bringing--it seems to me a lot of what happens in embassies 
could be handled at central locations with modern 
communication. Now, the disadvantage, of course, is if you 
bring it here, it may cost you more because you know it is more 
expensive to do a lot of stuff here, you may have some other 
advantages, but does it make sense to look at functions that 
are now handled out in the field and move them either here or 
maybe continentally, in each continent, or perhaps a central 
location so you have a better use of manpower?
    Ambassador Motley.  I think you have hit the nail on the 
head, and there was an example that we went through in looking 
at this, centralization, regionalization, bring it back to the 
U.S., or put it somewhere else. Lew and I received a briefing 
on what they call Nairobi 2010, which was the new embassy that 
is going to be built, and it was done inside the State 
Department by some of the FBO types, and it was very well done. 
They had a campus-type approach. The classified stuff you could 
separate so you could have ingress and egress well done and the 
rest. We asked and they did centralization there for parts of 
Africa of the State functions, and this is a key aspect. We 
said what about the other agencies. They said we don't have a 
mechanism today to find out what AID or somebody else is doing, 
and so that is one of the reasons for having this.
    Mr. Gejdenson. I have used too much time. I apologize, I 
have to go off to another meeting. I will tell you, I just took 
15 companies to India with me on a trade mission for 5 days or 
so on the ground, and you are right that this--in the process 
of these meetings, we were meeting with all the elected leaders 
of India, the Prime Minister, the Foreign Minister, the Defense 
Minister and others. Simultaneously, the foreign commercial 
service and other people at the embassy were working with our 
companies to have private sector meetings with matching 
companies. India is a pretty big country, but we really put a 
strain on the system I think in some ways by showing up there, 
and then of course the Secretary of the Treasury was coming a 
week later. The Secretary of State may be going there. The 
President is going there in March. We had four Senators come 
through at the same time, and so it does put a tremendous 
strain on the resources, and it might help if we could get 
better management, I think, of the back office functions.
    Now, the danger of course, is Congress will look to steal 
that money for something else rather than use it to create a 
better operating system, and I think you are going to have to 
go back and gently, because we are very sensitive up here 
unless we are attacking somebody else, prod us a little to do 
our job because all too often, when Presidents, Republican and 
Democrat alike, ask for security and other things, it is the 
Congress that ends up shortchanging them. Thank you.
    Chairman Gilman. Thank you, Mr. Gejdenson.
    Mr. Houghton.
    Mr. Houghton. Thank you, Mr. Chairman. This is a wonderful 
report. I think it is very helpful for us. It puts into sharp 
focus some of the things that we have got to be thinking about. 
Obviously, it is important to bring us along early, but it 
seems to me if you boil it all down, what you need us for is 
security money, and that is about $13 billion over 10 years. 
The rest is money I would imagine that could be handled within 
the State Department, particularly if other people than Felix 
are doing the types of things in their embassies they ought to 
be doing. This is a lot of management stuff. I mean, it is 
executive order, right sizing, enhancing, refocus the role of 
the Ambassador, human resources, consular service, perform 
administration, information. This is stuff that really should 
go on in the Department if the President and the Congress will 
respond to that in terms of the money.
    Mr. Kaden. I agree with you, Congressman, that the 
resources for security upgrades are a critical part of it, and 
only the Congress can do that, but I think also the 
congressional oversight and interaction with the Administration 
is critical to these management improvements. I think unless 
there is really a sense of partnership, of working together, it 
won't happen, or it won't happen at the pace that it should. I 
think this is, in some sense, an unusual area in which you 
should cross party lines, and in both houses have a common 
interest in working with the Administration in getting the job 
done.
    Mr. Houghton. I agree with that. That is an ongoing 
process, and it gets a little difficult these days, 
particularly if you go home to town meetings such as we go home 
to and people don't think we ought to spend a dime overseas. 
That is wrong. We have got to change that. But those are 
should. But in terms of the critical thing, if you can look 
back on how Congress could be most helpful, it is really in the 
security money, isn't it?
    Ambassador Motley.  I think it is important, but the 
security money actually came, and the Congress, too, came as a 
result of the first panel that Dr. Davis sat on, the 
Accountability Review Board. We don't shortchange security, but 
I can tell you that the biggest single shortcoming we found-and 
this is why I take a different view from your analysis-the 
single biggest shortcoming we found, in my view, was the 
absence of an interagency mechanism or structure in Washington 
to deal with the nonpolicy aspects, and in that sense, it isn't 
enough to say, we will put it in the State budget or the rest 
of it. These other agencies, some 30 or 40, have a right to a 
seat at the table.
    Mr. Houghton. But that is an executive function.
    Ambassador Motley.  Yes, it has changed mainly.
    Mr. Houghton. As a matter of fact, I don't think you want 
us to meddle in that area.
    Ambassador Motley.  It may be too late. I think we have.
    Mr. Kaden. I think there is a difference between meddling 
and doing it and using your oversight powers to hold their feet 
to the fire, make sure it is done.
    Mr. Houghton. I was just trying to get a priority here 
because we can get, in terms of reforms and all sorts of things 
which have to do within State Department, between agencies, the 
managerial aspects of this and the cost of them, but I was just 
trying to, in my own mind, figure out what is the quintessence 
of it.
    Mr. Kaden. I think the structure for getting the security 
done and the building upgrades made is critical, too. If you 
just appropriate the funds, even the amounts that we or Admiral 
Crowe and Dr. Davis asked for, and leave the current mechanisms 
in place to do the job, you won't get the bang for the buck 
that you want. You won't get the efficiency in using those 
resources in terms of how long it takes and how much it costs 
to get the facility upgrades done. So we think the new 
mechanism--which should be quite familiar to people like 
yourselves with experience in New York. The notion of a 
specialized government-chartered corporation with flexible 
powers to do tasks like construction and maintenance and 
building management is one that is quite common in State and 
local governments around the country.
    Mr. Houghton. Thank you very much. Thank you, Mr. Chairman. 
Again, a great report.
    Chairman Gilman. Thank you, Mr. Houghton. Mr. Delahunt.
    Mr. Delahunt. I want to agree with my friend from New York, 
Mr. Houghton. I think it is a very good, I think it is a solid 
report, and it raises the consciousness, if you will, of 
Members of Congress, but hopefully it will also have an impact 
beyond the Department of State and this institution in terms of 
the needs to update the infrastructure, because I think that is 
what you are saying, Ambassador. It is not about policy. It is 
really changing the infrastructure to meet the new role of 
American diplomacy. Is that a fair statement?
    Ambassador Motley.  Yes, sir, and within infrastructure is 
not just buildings.
    Mr. Delahunt. Sure, I understand that. Right, but the 
reality is, too, as Mr. Houghton indicated, it has a lot to do 
in terms of our role with funding of the security issues. I 
read recently--I come from Massachusetts, if you haven't picked 
up on the accent yet--in the Boston Globe, a story about our 
Ambassador to--because he is a Massachusetts native, Mr. Burns 
from Andover, Mass.-our Ambassador to Greece, and they were 
talking about the changing role of the Ambassador and about the 
evolving role of the American diplomat and within--for lack of 
a better term--the culture there seems to be great disagreement 
in terms of what that role is.
    I think I noticed, it was Mr. Kaden's written testimony, 
which I concur with, I think our Ambassadors and our diplomatic 
missions ought to be about advocating for American commercial 
interests. We are in a new era. The economy is a global economy 
now, for good or for bad. I am not commenting on that, but I 
think that is part of the change that you are trying to adapt 
to.
    But what concerns me, I guess, and I would be interested I 
think from you, Ambassador, more than the other panelists, is 
an observation about raising the profile and the need for the 
Ambassador to coordinate American policy in the host country, 
and when you hear the statistics--and I think it was Mr. Kaden 
who was saying in terms of American personnel, official 
personnel, a third is from the Department of State. There are 
some 30 agencies, and I get this uneasy feeling often that 
maybe the left hand doesn't know what the right hand is doing. 
Do you think there is a need to revisit, in terms of the role 
of the Ambassador, the necessity for a new infrastructure in 
clarifying and establishing some bright lines in terms of the 
Ambassador as the prominent, the coordinator or the voice for 
American policy in these other nations?
    Ambassador Motley.  In some interagency-type mechanisms, 
the law is very clear and I wouldn't suggest that it change. 
Section 207 of the Department of State Act in 1980 clearly 
states that the Ambassador is responsible for the direction and 
coordination and supervision of all executive branch 
activities, their people and their activities. That is very 
strong bureaucratic language, and Ambassadors take that to 
heart, and many of them don't have a leadership management 
problem.
    What we found was that a look of interagency coordination 
about how many people we send here and how many do there, that 
is what starts to create the problem. Embassies work very well. 
They are family, they live together and the rest of it, and 
they can absorb those different cultures in most cases. It is 
the support system back here. We went to look at embassies 
overseas and very quickly figured out that the problems really 
lay back here, a lot of it.
    Mr. Delahunt. But wouldn't the Ambassador, make 
recommendations in terms of--I think the term is in right 
sizing, right matching? Isn't the Ambassador the key to 
achieving what you are saying?
    Mr. Kaden. We have suggested that the initiative should 
come from the Ambassador, but you need this interagency 
committee back here because that is where the power to make 
decisions lies, and if the process works if the process that 
Ambassador Burleigh is now helping to set up works you will 
have Ambassadors coming forward with sound plans and then an 
interagency process in Washington to react to those plans, to 
refine them and to put them into effect.
    Ambassador Motley.  If there is one shortcoming in 
Ambassador authority and practice, it lies precisely in the 
area that you have pointed out. There is an animal called NSDD 
38, National Security Division Document 38, that was written 
more than a decade ago which in essence is the process in which 
an Ambassador or an agency can figure out how to put a person 
or to remove a person from post, a position, not a person. That 
is a fine-tuning aspect that unfortunately does not work very 
well. What is needed, I think, is this overall, to set the 
general pattern, where should we be, with how many and what 
composition, and then you do the fine-tuning one on one. All we 
have now is NSDD 38. It requires that the Ambassador be backed 
by the Secretary of State because it is a one-on-one drill. It 
is the Secretary of Justice or Treasury or something of that 
nature wanting, and the Secretary of State is not going to 
argue that a famous case of an assistant Naval attache in 
Stockholm because you are not going to sit down and spend a lot 
of time on it, understandable.
    Mr. Delahunt. You are right. I am not suggesting 
legislation is needed, but somehow empowering the Ambassador 
and conferring upon that Ambassador management prerogatives, to 
put his or her own team together within that country, despite 
the agency.
    Dr. Davis.
    Dr. Davis. To follow on from that, the Ambassador doesn't 
always have the influence to make those decisions. That is a 
fact.
    Second, an agency sends their people overseas essentially 
as a free good. So they don't have any incentive not to do it 
if someone says I think we should go. So you end up with an 
embassy with a variety of different people, with various 
different tasks, and the Ambassador does the best he or she 
can, but there is no overall rationale for it.
    Mr. Delahunt. Right, but I think that is really one of the 
concerns that I have, and I think is very fundamental to the 
management system changes that you are focused on here in the 
report.
    Mr. Kaden. One of our suggestions, which I think goes 
directly to the concern you expressed, is that the Ambassador's 
management prerogatives be clearly spelled out in a 
Presidential Executive Order, so it was transparent, so 
everybody knew what the scope of authority was. That is done to 
some extent now in something called the Presidential Letter 
that each Ambassador receives, but we thought it would work 
more effectively if it were clarified, strengthened and made 
transparent.
    Mr. Delahunt. As Ambassador Motley points out, for the 
Ambassador to come back and have a lengthy discussion with the 
Secretary of State or some Undersecretary of State about some 
attache, in the real world that just isn't going to happen and 
somehow----
    Ambassador Motley.  It did happen.
    Mr. Delahunt. I imagine it has on occasion, but again, so 
much depends upon who that particular Ambassador is.
    Mr. Kaden. That is why we thought that if you had this 
permanent interagency committee, if it was established by the 
President so it had the force of the White House behind it, you 
would have a mechanism for dealing with the staff.
    Mr. Delahunt. I think the report is well done, and I do 
think and I would hope that we could work bipartisan to 
implement it, in a bipartisan way, to implement it and provide 
the necessary oversight to see that it moves forward. Thank 
you, Mr. Chairman.
    Chairman Gilman. Thank you, Mr. Delahunt.
    Mr. Sherman.
    Mr. Sherman. Thank you, Mr. Chairman. A lot of the 
discussion has been about embassy security, and I think that 
has been covered reasonably well. I think we all appreciate the 
hardships and dangers that those who serve our Nation overseas 
endure. I want to echo Bill's comments about the importance of 
providing staff to deal with the commercial interests of the 
United States.
    Most of what the State Department does is almost impossible 
to judge according to standards; that is to say, if we don't 
get a peace treaty in the Middle East this year, I can't say 
that is the State Department's fault. If we have a trade 
deficit, it isn't because our commercial attaches have flunked 
some time and efficiency standard. But there is one area where 
you can actually measure the efficiency of what State does, and 
that is in the issuance of visas, and here we have a situation 
where State has done everything possible to avoid measuring its 
success or, should I say, terrible failure and where every 
interaction I have had with them has given me another 
indication that they are doing a terrible job, and it is a job 
that can be measured. I mean, I can't say that if we don't have 
a treaty on this or that that someone has done a terrible job.
    But this first came to my attention when an American 
citizen was put in touch with me who had to live in the United 
States 2 years without his wife because it was standard 
operating procedure in the Philippines that, we would wait 2 
years before we got around to letting the wife of an American 
citizen get a visa to come to the United States. So I want to 
thank the Chairman and this Committee for prodding and 
including one of my amendments that ultimately was grafted on 
to the appropriations bill to get a study of how long this visa 
process takes.
    Now, it doesn't take 2 years in Britain or France because 
the political powers in this country wouldn't tolerate that, 
but in Santo Domingo or Manila it does, and I would hope that 
we would go further in measuring the success of our visa 
operations, looking at every visa granting officer and every 
post and the State Department in total and say what percentage 
of the visa requests are rejected, what percentage of those 
that are granted involve overstays, what percentage of those 
that involve overstays are long-term overstays, how many of 
those overstays have been convicted of crimes in the United 
States, and we should recognize that when you deny a visa and 
you deny a chance to visit a family member or you deny a chance 
to come to Disneyland and spend money in my area, that that is 
a mistake just as it is an even greater mistake to issue a visa 
to somebody who overstays.
    So we can look at the success of avoiding granting visas 
where people overstay. We can also look at the rejection rates 
to see if those are too high. We can also look at the speed, 
and as I commented, 2 years of enforced separation of a husband 
and wife, if any other country did it, this Congress would 
demand that our Ambassador to the United Nations seek a 
resolution of the U.N. condemning that country for its 
violation of human rights, and I don't know whether your report 
deals at all with the allocation of visa officers, but it is 
not like this is unintentional.
    I am not saying it is purposeful. It is just if year after 
year you have a 2-year backlog in Manila and a 2-week backlog 
in London, and you don't round up five visa officers from 
London and transfer them to Manila in a couple of weeks, and 
you let that go on year after year after year, then you have 
decided that if an American marries a Filipino, they are going 
to be separated for 2 years, and that is just the penalty for 
marrying a Filipino or marrying someone from the Dominican 
Republic.
    So I would like to know if your study reviewed the 
efficiency in denying visas to people who overstay, in granting 
visas to people who come here, and the speed with which visas 
are issued, especially when you are reuniting a nuclear family 
of minor children and of husband and wife where either the 
husband or the wife is a U.S. citizen.
    Mr. Kaden. I am glad you raised that issue, because it is 
one we looked at very closely, and I didn't include it in my 
initial summary. I must say this is an area that I had never 
given a moment's thought to until I took on this task, but one 
of the first visits I made with members of the panel was to 
Beijing, and spent a couple of hours watching the processing on 
the visa line, these thousands of people standing in line, 
having paid a sizable fee for the privilege, being reviewed in 
a matter of 20 or 30 seconds; and then in talking to consular 
officers and leaders in the consular service and meeting with 
Ambassador Peterson, I think, who was one of your colleagues 
before he became Ambassador to Vietnam, talked about the 
enormous management task that lay ahead of them when they 
opened the consulate in Ho Chi Minh City, where they 
anticipated 1,000 to 1,500 applicants a day.
    Our report concludes that this is a tremendous management 
assignment. How you train consular officers, what kind of staff 
you use, as you say, how you allocate them around the world in 
the areas of greatest need, how you measure the performance of 
those functions, how you organize those and deploy those 
resources is a management task of tremendous importance and 
complexity, and one in need of significant improvement. We make 
some suggestions about how to use technology better, how to do 
advance appointments, how to use family staff members. You 
probably don't need full-time career foreign service officials. 
What you do need is people with the right language skills and 
the right interest in being involved in what amounts to a form 
of customer service, form of consumer service.
    So this is a very important area in which some reforms have 
been implemented and progress made in the last few years, but a 
great deal more room for improvement was identified.
    Ambassador Motley. If I could comment.
    Mr. Sherman. With the Chairman's indulgence, I would just 
like to add one thing here, and that is I had suggested to the 
State Department----
    Chairman Gilman. Without objection.
    Mr. Sherman. Thank you.
    I had suggested to the State Department that they use 
private bonds as a second way to validate that someone will 
return. This is a privatization of the decision, just as we 
demand bonds in the construction field, where a government 
agency says we are not going to hire capricious bureaucrats to 
decide whether you can complete the building, we will make you 
post a bond. There was what appeared to be such tremendous 
resistance by those in the field to get to exercise capricious 
power by applying vague standards. I have been called at 3 in 
the morning--they knew it was not an urgent matter, but they 
wanted to call me at home at 3 in the morning--they thought I 
was in Washington, so they thought it was 6 in the morning--
that any congressional involvement in any of these cases was an 
additional reason for staff to exclude somebody. So the desire 
to avoid privatization of the decision or any congressional 
input seems very strong.
    Congress is at fault to some extent here in underfunding 
this, but the Administration is at fault for not requesting a 
lot more funds.
    Mr. Kaden. I think there is a lot of room for improvement. 
The idea of private bonds or private sponsorship, in other 
words, an affirmation if someone has an employer who is a 
familiar institution, that employer can either bond or 
guarantee the likelihood of return.
    Mr. Sherman. And with a dollar amount that the Federal 
Government will get if the person overstays.
    I might add, Mr. Kaden, if your small law firm with 500 
lawyers didn't know down to the tenth of an hour how many hours 
each of your associates billed, you wouldn't have 500 lawyers. 
Yet no one can tell me whether Ms. X or Mr. Y--whether 90 
percent of the visas that they issue overstay or 1 percent 
overstay. No one can tell me whether they were just rejecting 
everybody, because we have no statistics as to how effective--
and if somebody were to just make capricious decisions that 
turned out to be very erroneous, either keeping people out or 
letting nobody in, we would have no idea.
    Ambassador Motley. You are correct in no statistics on 
overstay because we are one of the few countries in the world 
that has no exit governmental authorities. Everywhere else you 
go, when you go through, you go through some kind of 
immigration that restamps it on the way out. We don't do that.
    Mr. Sherman. Why don't we do that?
    Ambassador Motley. America has never done that.
    Mr. Sherman. I would hope that those of you writing a study 
like this would suggest it, because if we don't have statistics 
as to who is overstaying, then we can't possibly appraise the 
effectiveness of our visa-granting officers.
    Ambassador Motley. I would agree with you. You have talked 
about visas. There are some 8 million visa applications each 
year, that we know. The vast majority fall into--the 
overwhelming majority in the category that visit Disney World. 
The very small percentage are those that are called--the big 
ones are called NIV, non-immigration visas. The small portion 
are the case to which you talked about, but they are an INS--
the INS has a huge say in this because the consular officers 
overseas are enforcing U.S. laws that are under the INS.
    I am excusing the delays of the rest of it, but I might 
point out to you that we did cover some of the things. Our 
recommendation 6.1 in the report was one that we debated a lot 
in the fact that what we wanted to do was give the head of 
consular affairs and the Assistant Secretary the authority and 
power to move people exactly like you said, out of London into 
Manila and the rest of it.
    Now, there is internal, I will tell you, turf battle within 
the Department of State in which the regional Assistant 
Secretaries, of which I was one at one time, don't like this 
idea because if they want to do it, then security wants to do 
it, the whole argument. But we see the wisdom of what you have 
talked about, and we have come forward with that 
recommendation.
    Mr. Sherman. Whoever opposes transferring from London to 
Manila should stay separate from their spouse for 2 years or 
until such time as you know--the level of human loss here can 
be imagined only if you picture it happening to yourself. Mr. 
Chairman, thank you very much.
    Chairman Gilman. The gentleman's time has expired. Thank 
you.
    Dr. Cooksey.
    Dr. Cooksey. Thank you, Mr. Chairman. I must say that my 
experience with embassies abroad has been very positive and 
very favorable, and there are some real professionals there 
that I think are doing a good job, and we need to support them. 
I have been in some embassies where they are aware of their 
vulnerability from a terrorism standpoint, from a just 
standpoint of having some more bombings. I used to spend a lot 
of time in East Africa and particularly Nairobi, and those 
issues need to be addressed.
    This report recommends the use of some regional support 
centers, and currently there are some regional support centers, 
maybe even in Nairobi or Kenya. What else do you have in mind 
for these centers? Do you think it is possible that some of the 
work that is being done in these regional centers could, in 
fact, get some of the initial information, say, in Nairobi, and 
have someone back here in the States really do the detail work? 
Because it seems that some of these embassy staffs are 
overworked and understaffed, and yet here, I don't know that 
they are over staffed, but there are more people, there are 
more human resources to carry out these functions. Has that 
been considered, or is it possible?
    Mr. Kaden. That is directly part of the right sizing 
process. We did think that many of the overhead functions, 
payroll processing, vouchers, travel services, financial 
services and the like, could be moved into regional centers, in 
some cases back to the United States, and we did a survey of 
other organizations, both other governments and private sector 
organizations, and discovered that many of them were further 
ahead than our government in centralizing paper processing 
services, doing them more efficiently, and so we did recommend 
that that effort be pursued. It should logically come through 
the right sizing process.
    For example, in Paris, to keep picking on the French 
example, there are 170 back office support personnel in Paris 
doing these kinds of functions, paper processing and financial 
services. In Ambassador Rohatyn's view and in ours, those 
functions could be performed, in many cases, back in the U.S. 
in service centers at lower cost and more efficiently. Then in 
other parts of the world, it may be that you want to move some 
of these functions into regional centers. You don't have to 
reproduce them in each post.
    Now, a more difficult question, but one that we thought 
should be studied, is even when you get into the program and 
policy areas, are there functions where you could imagine an 
officer covering more than one country, being located in a 
regional center and having more territory to cover? There are 
pros and cons about that, but again, it is something we thought 
should be studied and evaluated as part of the right sizing 
process.
    Ambassador Motley. I think it is fair to state that the 
Department of State has tried, and what we are saying is you 
have got to do more of that. There is a huge passport center in 
the Northeast that does all of our passports, even the ones 
that are issued overseas.
    Dr. Cooksey. Where is it?
    Ambassador Motley. The issuing of passports, servicing 
Americans overseas, at 3.1 million Americans.
    Dr. Cooksey. You say there is one in the Middle East?
    Ambassador Motley. No. There is one in the Northeast United 
States. I can't remember the location. There is another central 
location for Latin America in Miami that covers a lot of all of 
the financial and the rest of it, and so what we are saying to 
them is you have got to do more of this kind of stuff. Lew's 
absolutely correct, when you get into the program and the 
policy issues, it becomes very difficult.
    I visited a post, a small post, Chisinau in Moldova, where 
there is one political economic officer, and so a regional 
environmental officer parachutes in. In this case it is he has 
to go to the airport to meet them, they don't speak the 
language. So he has to go on all of these meetings with him, 
translating and the rest of it, and he is not getting his work 
done in a sense. So just by itself this kind of regionalism 
doesn't cover all things.
    Dr. Cooksey. Yes, Dr. Davis.
    Dr. Davis. The thing that you always have to keep in mind 
is that as you think of consolidating functions in a particular 
place, as you bring more people to that place, that the 
security of that place is an important factor in those 
decisions. You are correct to say that Nairobi had become a 
regional center for a certain number of administrative and 
other kinds of activities, and there they were in an embassy 
building that was so vulnerable. It was vulnerable to crime, as 
the Ambassador described. She didn't expect it to be as 
vulnerable to a terrorist attack. But nevertheless, as you 
factor in your decision about where to place these people, you 
have to also factor in the security of that place, and the 
concept of a regional support center is a good one as long as 
it is a place that those Americans you put there are safe and 
not more vulnerable by being there.
    Dr. Cooksey. Basically you are saying you don't want to 
create a bigger target for the terrorists.
    Dr. Davis. Exactly.
    Dr. Cooksey. I understand that, and that is a valid 
concern. In this information age that we are going into so 
quickly, it does seem that we could do a lot of these functions 
back here.
    Has any consideration been given to putting--let me just 
give you an example. Let us say in Rome and Geneva, I 
understand we have two different mission buildings in both of 
those cities. Has any consideration been given to putting these 
two missions into one building, or is it necessary to separate 
some of these functions? Like in Rome, I think you have an 
agriculture----
    Mr. Kaden. I think it is fair to say that there may have 
been different views among different individuals on the panel, 
but I would think that the dominant view, or the closest thing 
to a consensus on the location issue was that there are 
advantages to collocation. People work together across agency 
lines, and they are for the most part--if one were thinking 
about an ideal physical setting, it would be something like a 
campus setting in which certain activities required a greater 
degree of security and dealt with classified information, as 
well as physical security needs. Others needed to be more 
accessible to the community in which they serve, but the need 
to work together argues for them being essentially in the same 
location.
    So that I think while there are some agencies that have a 
different view, our panel was more sympathetic to putting 
people in close proximity to each other and less to having one 
agency 20 miles away from the center of representation.
    Dr. Cooksey. Yes.
    Dr. Davis. The same argument leads you--the security issues 
lead you to the same conclusion, and that was the 
recommendation of the Accountability Review Boards that to the 
extent possible, that you would try to put Americans in a 
single place in order to provide a better level of security.
    Mr. Kaden. At the same time I think we were quite 
enthusiastic about this concept of small-presence posts that 
Ambassador Rohatyn has initiated in France, because in many 
countries there are centers of commercial activity or centers 
of political interest or other issues. They don't require full-
blown consulates with all the trappings and support staff, but 
they are places where the U.S. interests would be well served 
by having a couple of people with the right equipment and the 
right skills.
    That is particularly true in commercial advocacy where in 
many countries centers of commercial activity, centers of 
technology development are different than the national 
political capital.
    Dr. Cooksey. In closing, I would hope that everyone 
recognizes, certainly people from the State Department and the 
Congress in its oversight responsibility capacity, that as we 
move further into globalization, there are going to be more and 
more Americans overseas making demands on these embassies, and 
there are going to be more foreign nationals over there trying 
to get in here that will be making these same demands. So it is 
an awesome responsibility and no way to predict the future 
demands, and they will be greater I feel, but hopefully with 
information technology we can absorb that without adding too 
many personnel.
    Thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Dr. Cooksey.
    Mr. Delahunt.
    Mr. Delahunt. I just have one question, and I don't know, 
maybe this never came within the purview of your mandate, but 
as the concept has changed and evolved, and as--I think it is 
your term, Mr. Kaden--matching these new skills with the new 
demands, have any of you any observations about whether our 
academic institutions, whether it is Georgetown or the Fletcher 
School, are they evolving in terms of their curricula to 
provide the kind of training that is necessary in this new era 
of diplomacy?
    Mr. Kaden. I think Ambassador Motley would have views on 
that--in terms of foreign policy and foreign affairs training 
generally, but I would just make this comment. I think one of 
the phenomena we are observing is that the new skills required 
are often in areas of special expertise that we didn't need 
from our diplomats years ago.
    To just give you one example, one of the themes that we had 
common views throughout all the agencies we consulted with in 
the economic arena was that, to some extent, as a Nation we 
missed a bet in not paying more attention to the development of 
institutions for capital market activities as countries in Asia 
entered open markets. So attention to issues like securities 
regulation, accounting standards, banking oversight, where we 
have a great deal of experience and sophistication, we didn't 
put people on the ground with the ability to work with those 
countries as they were developing new activities in those 
markets, and to some extent, we paid a price in the Asian 
financial crisis for that.
    So those are skills. You don't need hundreds of people, but 
you need people with very specialized backgrounds, and they can 
come from any different agency. They might come from Treasury 
or Justice or State or other places, but they are going to have 
to have the required accounting and economics and legal 
training.
    Ambassador Motley. You have raised a very good point. You 
would think it would be logical that if you have a need, you 
would go to the academic institutions and say, we need more 
environmental officers, or something. I don't know that that 
goes on. I don't know that it doesn't go on, but I think 
essential to that is you have got to know what you need, and 
4.1 recommendation of ours--and I hope Ambassador Burleigh will 
take it to heart--is the Secretary of State needs to direct 
that there be a bottom up review of what is it that the State 
Department wants; what does it want in political terms, 
economic terms, also economic, environmental; are you going to 
have cross-training; how are you going to do this. If you don't 
have that, then there isn't anything to go over and tell 
Georgetown what they ought to be training people for.
    Chairman Gilman. Thank you, Mr. Delahunt. I just have a few 
questions, and then we can wind up.
    Mr. Kaden, we noted a theme that the State Department needs 
to professionalize many of its support functions to include 
personnel management. Should we follow the earlier 
recommendation made in the 1989 Thomas Commission Report on 
Personnel to drop the Director General and replace it with a 
statutory Assistant Secretary of Human Resources? What are your 
thoughts about that?
    Mr. Kaden. It is not a question that our panel specifically 
addressed, and I don't have a view on whether it should be the 
Director General or an Assistant Secretary, but I think the 
broader point is well taken, that human resources has become a 
complex, professional activity. That is true in organizations, 
public and private, around the country. There has been a great 
deal of change in strategic human resource management, and the 
State Department ought to catch up with that trend.
    Part of the broader point, too, which I am sure, Mr. 
Chairman, you are well aware of, is that we didn't look 
particularly at the structure of the State Department itself, 
but I think many of our panel members, including myself, had 
the observation that it is important for the Department 
leadership to pay attention to management in the broadest 
sense. There is inevitably a tendency both in the selection of 
top leaders and in their daily activities to get involved in 
the strategic and political crises of the moment, and that is 
obviously always going to be important, but this is a complex 
operation, thousands of people engaged in important functions, 
and somewhere near the top of the Department there has to be 
enough attention to operations and in the broadest management 
sense. I don't mean just financial management in the 
responsibility of the Under Secretary, but the Department, I 
think, needs a chief operating officer, and whether that is the 
Deputy Secretary, as someone has proposed, or someone else, it 
is an important part of the proper exercise of foreign affairs 
responsibility.
    Ambassador Motley. Mr. Chairman, the Director General is 
dual-hatted both in function and in title as the Assistant 
Secretary of State for the Bureau of Personnel currently. So 
they do. The Director General is an old phrase that came from 
when it was just kind of like foreign service, Director of the 
Foreign Service, but they are one and the same people now.
    Chairman Gilman. Dr. Davis.
    Ds. Davis. I can only urge the Committee to look at this 
issue of whether there should be a single person responsible 
for security in the Department. In my opening remarks, I 
recommend to you the recommendation of this panel, that the 
Deputy Secretary be given the responsibility to carry out for 
the Secretary her legislatively mandated responsibility to 
protect American officials overseas. We didn't have a single 
person with that responsibility and accountability at the time 
of the bombings in East Africa, and I would urge this Committee 
to support that recommendation and urge the Secretary to make 
that particular appointment as soon as possible.
    Then the broader point, which is all of these management 
tasks need to be thought about by somebody at that level and 
integrating all the pieces into a single overall strategy.
    Chairman Gilman. I would assume that person should have 
some security professionalism.
    Ds. Davis. I think that person needs to have the support of 
the Secretary and the advice of the professionals, but not 
necessarily himself or herself to be a professional security 
officer. What you are looking for is that all the complex 
issues that go into an overall security strategy are brought 
together in one place and not dispersed throughout the 
Department as it currently is today.
    Chairman Gilman. Now, isn't there an Assistant Secretary 
for Diplomatic Security in charge of security at the present 
time?
    Mr. Kaden. Yes, there is.
    Dr. Davis. There is, but that responsibility does not cover 
some additional functions that are associated with security, 
including resources for the broader sets of people who were 
involved in security. That person doesn't have the single 
responsibility to take decisions or even make recommendations 
on the closings of embassies when there are security threats. 
It is just a multiple set of people within the Department that 
have responsibility.
    I wouldn't change that, but then now I would put over them 
a single person that the Secretary can turn to, to make sure 
that all of those activities are properly coordinated.
    Chairman Gilman. Do we really need another person doing 
this, or can we just enlarge his responsibilities, this 
Assistant Secretary?
    Dr. Davis. I think it needs to be someone more senior than 
Assistant Secretary to carry out the charge and the set of 
responsibilities that come together to make sure that the 
security of Americans overseas is carried forward.
    Chairman Gilman. Mr. Kaden, the State Department several 
years ago created the overseas staffing model to use as a 
modeling system to achieve the right sizing. From our 
perspective this hasn't met the goal that it was supposed to 
achieve. It seems that this becomes a bureau struggle as the 
pressure is on, for example, the European bureau to down size, 
while Asia, Africa and other Latin American embassies increase. 
What can we do to overcome that turf battle?
    Mr. Kaden. Our conclusion when we looked at that particular 
exercise in the staffing models was exactly the same as yours. 
It had not worked. It did not seem to be a model of how to 
attack this problem, and we thought a far better way to deal 
with it was the interagency process, with leadership from the 
White House and direction from the State Department, was a much 
better approach. If that interagency Committee is set up as we 
hope it will be and functions well and demonstrates in the 
short term that it can make some effective decisions on right 
sizing and staffing patterns, enlist the cooperative effort of 
the different agencies, if Ambassador Burleigh and his staff 
are able to do that for Secretary Albright in this year, I 
think it will create a pattern that the next Administration 
will have to build on.
    Chairman Gilman. Have you discussed with OMB their 
opposition to the use of lease-purchase as a means of funding 
facilities overseas?
    Mr. Kaden. I have at great length, and I am not sure I can 
report a complete change of view, but I think in the 
consideration of this new vehicle, the overseas facilities 
authority, for more efficient construction and maintenance of 
buildings, the issue of the range of financing tools has to be 
reviewed by Congress. There are different points of view, I 
know, among your colleagues about lease-purchase financing, but 
under proper controls, and subject to all the usual power of 
Congress over appropriations and priority setting, I think it 
is part of the tool box. It ought to be part of the tool box.
    Chairman Gilman. Dr. Davis, a panel study identifies the 
need to change the culture in the Department of State to 
incorporate security as a fundamental element of overseas 
presence. Since you are both on the Accountability Review Board 
and now on this panel, do you detect any change in attitude 
toward the issue of security among foreign service personnel?
    Dr. Davis. I know that the bombings in East Africa were a 
wake-up call for most of our embassies and also the Department, 
and they have taken a number of steps, the near-term steps that 
I described in my testimony. The task now is for every person 
at home and overseas to understand that security is something 
they have to worry about and take steps to try to improve. It 
is not something that someone else does for you. It is not the 
regional security officer's task. It is not the Assistant 
Secretary's task for security. It is every person in the 
Department, it is every person overseas tasked to think about 
and prepare and try to be as safe as possible.
    We can't reduce all the risks, but we can just make it a 
part of the way we live and we act, and I think the bombings, 
the only thing that one can say that might be good coming out 
of those tragic bombings is now that people are taking it more 
seriously, and everyone knows that they have to take it more 
seriously.
    Chairman Gilman. As we try to treat all the posts worldwide 
with the need to address terrorist threats, is it realistic to 
provide the same level of security in a place like Dublin or 
Sydney as we would do for Pakistan, for example?
    Dr. Davis. We still have to consider the character of the 
potential threat, and some places will be more likely targets, 
but the one lesson we learned from the East Africa bombings is 
that terrorists are smart, too, and for those places where we 
thought there were no real threats, or there was a low level of 
threat, and we were doing all that we possibly could, they 
found our vulnerabilities, and they found ways to kill 
Americans. While clearly some areas of the world are more 
dangerous than others, and we still have to think about those 
threats in those terms, we can't assume that any place is free 
from those risks, and we have to be vigilant, and there are 
things we can do everywhere to improve the security of 
Americans.
    Chairman Gilman. When we talk about everywhere, is there a 
risk that because of the magnitude of the job of providing 
maximum physical security to all posts, that those projects 
just won't be completed in a timely manner?
    Dr. Davis. We will have to do it as quickly as we can. We 
can't do everything right away. It is a formidable task, a 
billion dollars a year, to try to do what it is we think will 
be needed. In the interim, though, there are a number of things 
that we can do to improve the security of buildings, and we 
will give priority to those that are most vulnerable, both in 
terms of their structure and where they are located. The real 
difficulty, it seems to me, is that a year or two ago will go 
by, and we will forget.
    Chairman Gilman. We have done that already when we had the 
Inman report.
    Dr. Davis. Our plea to you is that we can't let that happen 
again.
    Chairman Gilman. We welcome your reminding us in the event 
that happens.
    What about the focus on physical security, does that impede 
the attention of other kinds of security threats leveled 
against our posts, or are we taking our eyes off the other 
threats that could impede security?
    Dr. Davis. I think the task of security today is a broad 
range of tasks. It is certainly the car bombs. Those are the 
immediate kinds of threats that we saw, but now we see a world 
in which terrorists will have easier access to chemical and 
biological weapons, even nuclear weapons. They will be able to 
put at risk some of our own information structures so that the 
character of the threats that we have to think about when we 
think about preserving security is much broader than in the 
past.
    That doesn't mean, though, that we can't do some specific 
things to prevent car bombs, those the Department has begun to 
undertake and have a real urgency as well.
    Chairman Gilman. Does our foreign service accept and 
understand the importance of embassy security? Do they truly 
throughout the service recognize the need for grasping the 
importance, whether it be personal security, protection of 
classified information, whatever the nature of the security be?
    Dr. Davis. All I can say is I certainly hope so. I think 
that our reports and what has happened has led the most senior 
people in the Department, all of our Ambassadors, to see the 
importance not only of thinking about security, but preparing 
and training. A whole series of steps have been undertaken.
    I can't speak for the foreign service, but I can certainly 
assure you that all those I was most fortunate to meet during 
my service in the Department are the kinds of people that I am 
sure are smart enough to know this is something they need to 
do, and I suspect they are doing what they can.
    Chairman Gilman. We expect to follow up with additional 
hearings to include Administration witnesses and businesses and 
organizational experts in the coming few months so we can 
support the work you have done. As we follow up on these 
issues, we will also draw upon the recent studies in the 
foreign affairs structure.
    Again, I want to thank our panelists for being here today. 
I want to thank Ambassador Peter Burleigh for sitting in, and 
we wish you well in your new work. So again, our thanks to the 
entire panel for the work you have done in preparing this 
excellent report.
    The Committee stands adjourned.
    [Whereupon, at 12 noon, the Committee was adjourned.]
      
=======================================================================




                            A P P E N D I X

                            February 2, 2000

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T5232.001
    
    [GRAPHIC] [TIFF OMITTED] T5232.002
    
    [GRAPHIC] [TIFF OMITTED] T5232.003
    
    [GRAPHIC] [TIFF OMITTED] T5232.004
    
    [GRAPHIC] [TIFF OMITTED] T5232.005
    
    [GRAPHIC] [TIFF OMITTED] T5232.006
    
    [GRAPHIC] [TIFF OMITTED] T5232.007
    
    [GRAPHIC] [TIFF OMITTED] T5232.008
    
    [GRAPHIC] [TIFF OMITTED] T5232.009
    
    [GRAPHIC] [TIFF OMITTED] T5232.010
    
    [GRAPHIC] [TIFF OMITTED] T5232.011
    
    [GRAPHIC] [TIFF OMITTED] T5232.012
    
    [GRAPHIC] [TIFF OMITTED] T5232.013
    
    [GRAPHIC] [TIFF OMITTED] T5232.014
    
    [GRAPHIC] [TIFF OMITTED] T5232.015
    
    [GRAPHIC] [TIFF OMITTED] T5232.016
    
    [GRAPHIC] [TIFF OMITTED] T5232.017
    
    [GRAPHIC] [TIFF OMITTED] T5232.018
    
    [GRAPHIC] [TIFF OMITTED] T5232.019
    

</pre></body></html>
